<html>
<title> - FOOD FOR THOUGHT: SUSTAINABILITY FROM COUNTER TO COMPOST</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]





        FOOD FOR THOUGHT: SUSTAINABILITY FROM COUNTER TO COMPOST

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 2008

                               __________

                           Serial No. 110-26



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov


                                  ______

                      U.S. GOVERNMENT PRINTING OFFICE
  61-527 PDF               WASHINGTON : 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f196819eb19284828599949d81df929e9cdf">[email&#160;protected]</a>  











                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                   Gerard J. Waldron, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director













                            C O N T E N T S

                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared Statement...........................................     3
Hon. F. James Sensenbrenner, Jr. a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
Hon. Emanuel Cleaver II, a Representative in Congress from the 
  State of Missouri, opening statement...........................     6
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................     6

                               Witnesses

Daniel P. Beard, Chief Administrative Officer, U.S. House of 
  Representatives................................................     7
    Written Testimony............................................     9
    Answers to submitted questions...............................    44
Patricia D. Millner, Research Microbiologist, Agricultural 
  Research Service, U.S. Department of Agriculture...............    13
    Written Testimony............................................    15
    Answers to submitted questions...............................    52
Tom Kelly, Ph.D., Chief Sustainability Officer, University of New 
  Hampshire......................................................    20
    Written Testimony............................................    23
Carina Wong, Executive Director, Chez Panisse Foundation.........    29
    Written Testimony............................................    32
    Answers to submitted questions...............................    60

 
        FOOD FOR THOUGHT: SUSTAINABILITY FROM COUNTER TO COMPOST
________________________________________________________________________



                       TUESDAY, FEBRUARY 26, 2008

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:00 p.m., in room 
1100, Longworth House Office Building, Hon. Edward J. Markey 
(chairman of the committee) presiding.
    Present: Representatives Markey, Blumenauer and Cleaver.
    Staff present: Danielle Baussan.
    The Chairman. Good afternoon. Global warming has been 
linked to the cars that we drive, the energy supply, and now 
the food that we buy. From farm to fork, our food often travels 
long distances to reach our plate. The carbon dioxide emissions 
from these food miles traveled are compounded by the methane 
produced when food waste is tossed in landfills.
    We cannot continue to spite the land that feeds us. The 
witnesses before us today are all pursuing sustainable dining 
options that can alleviate the impact of our food consumption 
on global warming. The impact is prevalent in the three 
responsibilities of a dining facility: procurement, 
consumption, and disposal. Purchasing local food reduces food 
miles traveled. Using renewable, biodegradable plates and 
utensils reduces oil consumption and waste. Turning table 
scraps and leftover food into compost returns nutrients to 
farms and reduces global warming.
    The food Americans eat increasingly comes from greater 
distances. From 1970 to 1980, our food miles traveled increased 
1,300 to 1,500 miles. A 2002 World Watch Institute report 
stated that food in the United States traveled between 1,500 
and 2,400 miles. The typical American prepared meal contains on 
average ingredients from at least 5 countries outside of the 
United States. By favoring more local fare, the CO<INF>2</INF> 
emissions associated with food travel can decrease 
significantly. A University of Washington study found that a 
plate of Washington-sourced foods resulted in 33 percent fewer 
CO<INF>2</INF> emissions than a plate of similar foods from 
their most popularly imported countries or States of origin.
    Even if a meal is entirely local, its contribution to 
global warming continues after the plates are cleared. Yard 
trimmings and food waste constitute 24 percent of the U.S. 
municipal solid waste stream, and half of the garbage at 
restaurants is estimated to be food waste. As this food rots in 
the landfill, it produces methane. If that methane escapes into 
the atmosphere, it traps 20 times more heat than 
CO<INF>2</INF>. Food in landfills will continue to contribute 
to methane emissions. A 2006 study predicted that, by 2025, 
food waste will increase by 44 percent worldwide. This methane 
build-up is deplorable because it is preventable. Food waste 
can be recycled into compost, resulting in fewer emissions and 
in new economic products. Compost soil can be used to fertilize 
crops and landscaping and support green jobs in food waste 
recycling. The reduced garbage load can result in lowered 
disposal fees as well. Using materials that can be converted to 
compost further relieves the strain on our landfills and steers 
facilities away from petroleum-based plastic products.
    The witnesses before us today have successfully put these 
principles into use. I look forward to hearing from those 
witnesses, and I will introduce them at that point in the 
hearing. The chairman's time has expired.
    I now turn to recognize the Ranking Minority Member, the 
gentleman from Wisconsin, Mr. Sensenbrenner.
    [The prepared statement of the Chairman follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Sensenbrenner. Thank you, Mr. Chairman.
    Today we are talking about the food chain and its impact on 
greenhouse gas emissions. It seems from the testimony we will 
hear today that, by making changes to the way food is 
delivered, prepared, stored and disposed of, we can create some 
positive environmental balances. But there are costs associated 
with these changes. In the long run, these costs may be worth 
it, or maybe they are not. It points to a larger problem with 
all things green being sold to us today.
    One of the projects we will hear a lot about today is part 
of Speaker Pelosi's Green the Capitol Initiative. This project 
includes many changes to House food service operations, and we 
welcome Chief Administrative Officer Dan Beard here to talk 
about them. But do the costs associated with these changes 
create worthwhile greenhouse gas reductions? Simply put, are we 
getting the most bang for the buck? Some changes, like serving 
cage-free eggs or hormone-free dairy--and in Wisconsin, we only 
produce hormone-free dairy--will result in no greenhouse gas 
reductions whatsoever.
    One of my four guiding principles in evaluating any global 
warming policy is: Will it produce tangible, measurable 
environmental benefit? The House food service project seems to 
leave that question open, which concerns me.
    If the point is to reduce greenhouse gas emissions, could 
the money spent making wholesale changes to House food services 
be better focused on creating more energy efficiency in the 
House? It is unclear to me if there is enough transparency in 
this process to actually measure if these changes are worth it. 
Mr. Beard's testimony points toward many simple changes in 
lighting, heating, and cooling that could end up saving the 
taxpayers $20,000. And that is a good thing. It is just too bad 
that $89,000 in taxpayers' money has apparently gone towards 
questionable carbon offsets, in an effort for the House to 
reach its goals of its Green the Capitol Initiative.
    As the Washington Post reported in late January, it seems 
that some of these offsets are very questionable. The report 
showed that these offsets produced very little in the way of 
additionality; that is, it was difficult to show how those 
taxpayers' dollars did anything to create greenhouse gas 
reductions that would not have occurred anyway.
    This article shows to me there needs to be more 
transparency in dealing with all things green. It seems obvious 
that there are many opportunities for waste, fraud, and abuse 
or questionable actions to be hidden in a green cloak. Do 
changes in the House cafeteria produce more and better 
environmental benefits for the dollar than improvements in 
energy efficiency? Do offsets really produce greenhouse gas 
reductions? And, if so, how much? These are questions that both 
policymakers and consumers should have answers to.
    Many of the changes talked about today in the food service 
industry will come down to consumer choice. Living in a carbon-
free environment will have significant costs and trade offs 
associated with them. It will take consumers, and not Congress, 
to tell us if these lifestyle changes are worth it.
    I thank the Chair.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you very much for being here. And I am 
extremely interested in having a dialogical exchange with you 
after your presentations. I am very much interested in 
sustainable eating and sustainable agriculture that could 
separate us from the rest of the world that, frankly, is 
already ahead of us in so many ways with regard to dealing with 
the greenhouse gases because of our geography. This Nation is a 
mammoth piece of property, and I think, if used wisely, we 
could demonstrate to the rest of the world what kinds of things 
can be done on a local level that could sustain life and the 
environment at the same time. So, I look forward to our 
exchange later on. And thank you so much for being here.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    The gentleman from California, Mr. McNerney, is recognized.
    Mr. McNerney. This is an excellent topic, because it 
illustrates one of the ways that our daily activities that we 
take for granted contribute significantly to the greenhouse gas 
issue. In my district, which includes portions of the San 
Francisco Bay Area, one of the most interesting approaches I 
have seen is the grease recycling project in the East Bay. 
Innovative ideas such as this are small yet can be effective, 
and these are initiatives which will lower greenhouse gas 
emissions.
    I am interested in hearing remarks from Chez Panisse 
Foundation, which is based in the Bay Area, and all of the 
witnesses. Thank you very much.
    The Chairman. The gentleman's time has expired. All time 
for opening statements from Members has expired, although they 
will be allowed to place their opening statements in the 
record. We now turn to our panel.

 STATEMENTS OF DANIEL P. BEARD, CHIEF ADMINISTRATIVE OFFICER, 
 U.S. HOUSE OF REPRESENTATIVES; PATRICIA D. MILLNER, RESEARCH 
MICROBIOLOGIST, AGRICULTURAL RESEARCH SERVICE, U.S. DEPARTMENT 
OF AGRICULTURE; TOM KELLY, PH.D., CHIEF SUSTAINABILITY OFFICER, 
    UNIVERSITY OF NEW HAMPSHIRE; AND CARINA WONG, EXECUTIVE 
               DIRECTOR, CHEZ PANISSE FOUNDATION

    The Chairman. Our first witness, Daniel Beard, is the Chief 
Administrative Officer for the House of Representatives. Mr. 
Beard spent 10 years on the staff of the House Appropriations 
and Natural Resources Committee. He returned to the Hill at 
Speaker Pelosi's request to become the Chief Administrative 
Officer. He is well suited to Speaker Pelosi's Green the 
Capitol Initiative with his extensive background managing 
environmental issues with the Department of the Interior and 
the National Audubon Society. His work on Greening the Capital 
and the House cafeteria system has been noted by food writers 
for the New York Times, the Washington Post, and the San 
Francisco Chronicle.
    We welcome you, Mr. Beard. Whenever you are ready, please 
begin.

                  STATEMENT OF DANIEL P. BEARD

    Mr. Beard. Thank you, Mr. Chairman, and members of the 
committee. I appreciate the opportunity to be here with you 
today.
    Our goal with the House Food Service Operation has been to 
make it a premier showcase of sustainable, green, and healthy 
food operations. We have worked closely with our new food 
service vendor, Restaurant Associates of New York, to implement 
our changes with each of the 240,000 meals we serve each month 
in our cafeterias, carry outs, and other facilities.
    Our highest priority was the banning of all plastic and 
Styrofoam from the cafeterias. In addition, we wanted to make 
nearly all of our waste stream compostable. As a result, all of 
the knives, forks, and spoons, which are in use in the 
cafeteria, as well as our sandwich clamshells, which has a 
delicious desert in it, are made from corn-based products. The 
plates and coffee cups are from paper. And the entree 
containers, which are shown here, are made from sugar cane. 
This material in front of me will become compost in 90 days.
    The House is demonstrating, I think, with this effort and 
with every meal that we serve, that there is a market for U.S. 
manufacturers to provide green, sustainable, recyclable 
products. Our biodegradable items, for example, come from 
companies in Maine, Nebraska, Pennsylvania, and Georgia.
    We send the compostable food service items, along with all 
of the food waste in the front of the cafeteria and from the 
kitchens, to a pulper which was purchased on the Longworth 
loading dock. The pulper then breaks down the compost into this 
material, which looks a lot like coleslaw or a moist confetti. 
So all of these items plus all the food from the front and back 
of the House plus all these are then ground into this kind of a 
mix. It is picked up once a day, and it is sent to compost 
facilities in suburban Maryland. Two days a week, it goes to 
the Department of Agriculture; three days a week to a 
commercial composter near Crofton. The result is, what you have 
in 90 days is compost material. And I brought both an example 
of the compost material, the start of the process, as well as 
the end of the process.
    Now, while the new operation has only been up and running 
for 60 days, preliminary results are very encouraging. The 
waste hauler for the landfill picked up 20 tons less material 
in the last three weeks of December 2007 as compared with 2006. 
We are realizing cost savings by hauling and depositing less 
waste in landfills, and the compost tipping fees are 30 percent 
less than they are at the regular landfills.
    More important, sending the food service waste for compost 
also reduces our carbon footprint by preventing the conversion 
to methane, as the Chairman mentioned. We are now working to 
calculate the methane reduction and use the savings as a carbon 
offset for the House operations.
    We have also looked at our food, the food that we serve, 
for sustainability improvements. Our coffee, Pura Vida coffee, 
is fair trade, shade grown, and organic. Our beef, chicken, and 
pork are hormone free. The seafood served is certified 
sustainable by our using the Monterey Bay Aquarium Seafood 
guidelines.
    Under Restaurant Associates, the amount of fresh produce 
and meat has increased from 35 percent under the previous 
vendor, GSI, to 85 percent. This switch to fresher food and the 
resulting trimmings is complemented at the back end, with the 
pulper and the composting solutions that we have implemented.
    The House is also promoting the buying of food produced in 
a 150-radius from the Capitol whenever possible. We are 
emphasizing the purchase of organically produced food, and 
providing a market for new and existing farms and businesses to 
meet these needs. This, incidentally, is part of the policy 
efforts and the direction that Restaurant Associates has used 
in its operations in other cities as well.
    We have made a good start, but we know that there is much 
more that we have to do to be sustainable, greener, and to 
continue to reduce our carbon footprint.
    I want to thank you, Mr. Chairman, for the opportunity to 
testify. And I would be happy to answer questions at the 
appropriate point.
    [The prepared statement of Mr. Beard follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you, Mr. Beard, very much.
    Our next witness is Dr. Patricia Millner, who specializes 
in environmental microbiology. Her work on micro-organisms and 
composting has significantly influenced the design of large-
scale composting facilities. She also researches how composted 
soil can prevent disease. She is a research microbiologist in 
the Sustainable Agricultural Systems Laboratory in the U.S. 
Department of Agriculture, where House cafeteria food waste is 
composted.
    We welcome you, Dr. Millner. Whenever you are ready, please 
begin.

                STATEMENT OF PATRICIA D. MILLNER

    Ms. Millner. Thank you for the opportunity to appear here, 
Mr. Chairman. I would like to present some information on 
general aspects of composting and the environmental benefits as 
related to food residuals, management, and the greening 
practices.
    Composting involves a natural aerobic self-heating process 
in which micro-organisms rapidly transform the raw organic 
materials into humus, which is a critical component for soil 
health. Management and testing are used throughout this process 
in order to ensure that the primary goals of nutrient 
stabilization, pathogen destruction, and odorant elimination 
are achieved.
    When finished, compost is mixed with soil, and this helps 
to reduce erosion from wind and water. Compost also enhances 
soil structure, root penetration, and, very importantly, the 
water-holding capacity of soil. All of these aid in plant 
growth and increase the resistance to drought, disease, and 
other stresses. Compost also provides major and minor plant 
nutrients and can substitute for one-third the amount of 
nitrogen fertilizer usually required for turf. This means that 
compost use on lawns in areas like Washington, D.C., and the 
surrounding metropolitan area can help reduce nutrient runoff 
that ultimately gets into water waste such as the Potomac River 
and the Chesapeake Bay.
    Composting can also reduce the generation and release of 
greenhouse gases. Recent estimates indicate that aerobic 
composting instead of landfilling of food residuals avoids 
major amounts of methane generation and release. Approximately 
6 metric tons of CO<INF>2</INF> equivalent are saved from each 
metric ton of compost food residuals that are not landfilled.
    Locally, at the Beltsville Agriculture Research Center, we 
compost 13,000 cubic yards a year of organics from our 6,500 
acre farm. This picture up here gives you an aerial view of our 
composting site. The long rows are actually the wind rows we 
use. The second picture shows the compost turner, which is used 
in the process of turning this compost periodically.
    In recent years, we have composted food residuals mixed 
with compostable biobased cafeteria ware from the South and 
Whitten Buildings. This activity now includes collectively 
about 40 cubic yards per week, or 6 tons, of material from the 
South Building and the Whitten Building, the U.S. House of 
Representatives Longworth Building cafeteria and a commercial 
organics food retailer. A commercial provider collects and 
hauls the material 10 miles from D.C. to our site at 
Beltsville, where it is mixed with sawdust from the 
congressional woodworking shop, along with leaves and old hay 
from our farm. This public-private team effort has helped to 
advance the inclusion of compostable biobased cafeteria ware.
    As the seasons progress, we plan to incorporate grass, 
landscape, and floral trimmings from the congressional grounds, 
the U.S. Botanical Gardens, and the USDA headquartered complex.
    The residuals from the Longworth cafeteria are notably 
distinct from the other materials that are collected in that 
they are pulped, as Mr. Beard has explained. This type of 
processing reduces the whole mass by approximately 70 percent, 
with concurrent per-unit whole cost savings, and facilitates an 
accelerated decomposition.
    Our interest in composting food residuals at BARC measures 
well with our field skill research studies, which include 
evaluations of the degradation rate of biobased cafeteria ware 
as part of the USDA's BioPreferred Program. And that includes 
things like this corn-based bottle, which is a water bottle 
with a chlorine filter attached inside. And there are some 
other articles that are being passed around the room that are 
also biobased.
    We are also looking at the efficiency of biofiltration on 
reducing greenhouse gas emissions from a variety of different 
composting formats. Alternative uses for excess compost heat 
are also an important feature of our program. And, lastly, we 
are also always concerned with the safe production of local 
leafy greens, fresh fruits, and vegetables.
    Currently, the compost from Beltsville is used for soil 
improvement on the USDA farm, the U.S. National Arboretum and 
the USDA Whitten Building gardens.
    Looking forward, we have engaged with the Maryland 
Environmental Service, the Maryland Department of Environmental 
Protection, and members of the U.S. EPA headquartered in Region 
III food recycling work group to explore and encourage more 
food composting capacity in the D.C. metropolitan region. To 
address this need and to avoid long-haul distances, we are 
pursuing, through our cooperative research and development 
agreements, a variety of in-vessel composting and processing 
options that include energy recovery and sustainability.
    In conclusion, BARC and other ARS locations continue to 
press forward with composting and other technologies to 
increase recycling of agricultural, municipal, and food 
residuals, to reduce the landfilling of organics, to increase 
energy capture, and to lessen the pollution that threatens our 
natural precious resources: soil, water, and air.
    My colleagues and I appreciate the opportunity and the 
interest of your committee in the issue of recycling food 
residuals and compostable biobased products.
    Mr. Chairman, this concludes my remarks. I would be happy 
to answer any questions.
    [The prepared statement of Ms. Millner follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Cleaver [presiding]. Thank you very much.
    We will move now to Dr. Kelly. Thank you for being here.

                 STATEMENT OF TOM KELLY, PH.D.

    Mr. Kelly. Thank you very much for the opportunity to 
testify about the essential role of the food service industry 
and sustainability, and the strategic value of sustainability 
to guide food service innovation.
    I am the chief sustainability officer of the University of 
New Hampshire where, for the last 10 years, I have directed the 
University Office of Sustainability, the first endowed 
university-wide program of its kind in the country. The 
University of New Hampshire is building a culture of 
sustainability by organizing everything we do around its 
principles, our curriculum, our operations, our research, and 
engagement with the wider world.
    Within our own campus operations, we have been building a 
low carbon infrastructure that will result in total emissions 
57 percent below 1990 levels by this time next year, with no 
offsets purchased, millions of dollars saved, and energy 
security enhanced.
    But our efforts go well beyond that in educating the next 
generation of citizen professionals to meet the challenges of 
sustainability. And building a sustainable food system is 
fundamental to this broader mission. I have included specific 
examples in my written testimony, including our local harvest 
initiative that links local and regional procurement with 
energy and water efficiency and composting, as well as the 
first organic dairy research farm on a land grant university in 
the United States. But for my purposes, for speaking, I would 
like to share four principles and five broader recommendations 
with you that we have found to be important in building a 
sustainable food service at the University of New Hampshire, 
and all of these are about business not as usual, but about 
collaborations and partnerships that cut across virtually every 
well established boundary between disciplines, management 
functions, and internal and external stakeholders.
    First, a comprehensive approach to food system 
sustainability must address the important role played by the 
food service industry, and I applaud your actions here today to 
do just that. The food service industry is an increasingly 
important actor in the chain that links agriculture, the 
environment, and public health. In addition to minimizing their 
own direct operational impacts, sustainability practices within 
the food service industry can create greater demand for 
sustainable agriculture from the local to the global level, 
while providing healthy, delicious cuisine that nourishes the 
palate and the spirit. This means that the sustainable food 
system advocates from all sectors must engage the food service 
industry in these broader efforts.
    Second, a comprehensive approach to building a sustainable 
food service industry must see that industry as part and parcel 
of the larger food system. A successful approach must go beyond 
food counter to compost, as this hearing is entitled, to 
embrace the entire food system cycle, from healthy soils to 
healthy farm and food enterprises to healthy communities, 
including composting operations, that in turn help build 
healthy soils. And so the cycle continues. We cannot truly have 
a sustainable food service industry unless we have a 
sustainable food system from farm to fork to compost to food 
security and nutritional health.
    This means that the sustainable food service advocates and 
enterprises need to actively engage with partners from 
agriculture, resource conservation, and nutrition to add their 
unique and critical contribution to this larger shared goal.
    Third, a comprehensive approach to building a sustainable 
food industry must see the food system as part of the larger 
society in which it operates. In our communities, food, 
agricultural, and nutrition are linked and inseparable from 
climate management, biodiversity and eco systems, and to 
regional economies and livable wages. All of these factors 
interact to impact our public health and quality of life. This 
is the province of sustainable communities and the larger goal 
of sustainable development.
    Within a given food service operation, sustainability means 
thinking up and down the supply chain and across the life cycle 
of its products and services, and out into the communities and 
regions that are working to sustain the quality of life.
    Finally, in addition to incorporating sustainability 
practices into our food service industry, it is critically 
important that these practices are seen as an integral part of 
education and learning within a broader culture of 
sustainability. In higher education, sustainable food practices 
must be complemented by curriculum, research, and public 
engagement that strengthens sustainable food systems in our 
communities.
    By cultivating the capacity of students in all fields to 
advance sustainability in their civic and professional lives, 
we can ensure that the goals of energy independence and climate 
stabilization benefit from and contribute to the equally 
important goals of food security and environmental and public 
health. Education is the key to empowering and inspiring the 
creative problem solving that can sustain and improve the 
quality of life for all Americans.
    What is common to all these efforts that we are engaged in 
related to food, energy, and the environment, and quality of 
life is collaboration built around shared goals that are in 
everyone's interests. Those shared interests lie in the fact 
that reducing greenhouse gas emissions, so-called mitigation, 
is absolutely necessary but insufficient to address the issue. 
We must simultaneously adapt to regional impacts of an already 
changing climate by building resilience into the systems that 
sustain our communities, including food systems.
    So, five points just to summarize here in closing that 
these, we think, are, based on our experience, principles that 
could help guide a national policy framework.
    One, support regional approaches to food and agriculture 
that reflect the diversity of ecology and culture and the 
opportunities.
    Two, link food and farming to health, nutrition, and 
poverty reduction.
    Three, support research for sustainable approaches to 
biofuels that must reflect the best scientific assessments 
across the full life cycle of those fuels.
    Fourth, support responsive land grant universities. We have 
a marvelous network in place, including cooperative extension 
that can really contribute to these problems and solutions.
    And, finally, support sustainability science with the 
recognition from the National Research Council, National 
Academy Sciences of the importance of responsive science.
    Thank you for the opportunity, and I look forward to 
discussion.
    [The prepared statement of Mr. Kelly follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Cleaver. Thank you very much, Dr. Kelly.
    Let me apologize. The sounds you heard were aimed at 
getting us over to the Capitol to cast four votes, and time is 
running out for us to get there. Is it possible for you to stay 
until we can return? I would say approximately 25 minutes. I 
hate to do this. Congress is manic depressive; and this is not 
a sustainable way of doing business, but this is the way it is. 
So we would appreciate it very much if you could stay, and we 
will get back immediately after the last vote is cast. Thank 
you.
    And, Ms. Wong, we will start with you.
    Mr. Cleaver [presiding]. I appreciate your waiting for us. 
I apologize. We never know when we are going to be called for a 
vote, except that we know we will not be now. We have taken the 
last vote for today, and so we are ready to resume. I cannot 
apologize enough.
    Ms. Wong, if you would proceed.

                    STATEMENT OF CARINA WONG

    Ms. Wong. Thank you.
    I come here today as the executive director of the Chez 
Panisse Foundation and, more importantly, as the mother of two 
young children. When you have children, you begin to worry 
about a lot of things, and what they eat, or food, is one of 
them.
    The Chez Panisse Foundation gets its name from a restaurant 
that wholly supports two farms and 85 others by buying locally, 
seasonally and sustainably. It was started by a woman named 
Alice Waters. Alice is also the founder of the Chez Panisse 
Foundation. We are a separate nonprofit, and our work is to 
support educational programs that use food to educate, empower 
and nurture youth to build a more sustainable future.
    Twelve years ago, we started an organic kitchen and garden 
program at a public middle school to build a model that would 
change the way children relate to food. We wanted to show them 
how their food choices have both an impact on their health, the 
community and the environment. Today, the Edible Schoolyard is 
a program in which every child participates in growing, 
harvesting, cooking and sharing food at the table. Children 
learn about where their food comes from and math, reading and 
writing. They learn about proportionality with recipes and 
science with soil experiments and history through ancient 
grains that they harvest. They turn the compost pile, and the 
scraps from the kitchen classrooms go into it.
    The original vision for the Edible Schoolyard was to 
include a school lunch program for all students, not just a 
healthy lunch but a delicious one, that is made from local, 
seasonal and sustainable ingredients. Our schools in Berkeley, 
like other schools in America, before we started this work, 
were serving frozen lunchmeat sandwiches in packages; something 
called encheritos, which I am still not sure what they are; and 
chicken fingers that, no doubt, had traveled what is the 
typical 1,500 miles to get to our cafeteria. So we funded a 
chef to work inside the school district to begin to make 
changes, not just taking the bad things out but focusing on 
buying locally. It was an important part of our strategy and 
our vision.
    Lots of districts are trying to change their food and take 
fat out or lower the sugar, but they are not looking at their 
local sourcing. And we knew that local, seasonal and 
sustainably grown foods would be better for the environment, 
and they would simply taste better for kids: ripe, juicy 
tomatoes in the late summer, tangerines in the winter, apples 
in the fall, lettuces in the spring. We had a vision they would 
lure children into our cafeterias, but could the district, our 
public school district, afford these changes? They had a policy 
that said they should do it, but would they really do it?
    So, 2\1/2\ years later, we have a salad bar in every 
school, much of which is organic; free breakfasts for all 
students; and organic milk at lunch. Thirty percent of our 
produce is organic and actually regionally or locally procured. 
We compost and recycle in all of our kitchens, 16 of them, and 
we have moved away from metal containers, serving buffet style 
with compostable trays and, in some schools, with real plates.
    The Foundation does not pay for any of the food costs. We 
supported the cook in the development of new menus, procurement 
systems and in evaluation.
    It sounds quite simple: Buy locally and make real food. It 
is as right as rain, but we face many challenges. Can you 
imagine that, when we started, we had to teach people who were 
making the food how to use a knife? Can you imagine that we do 
not have a stove in our central kitchen that serves 5,000 meals 
a day? Can you imagine that we could not even buy from a farmer 
from the farmers market because we had no place to store his or 
her produce and no way to purchase directly from them? Finally, 
what do you think you can make for lunch that is nourishing and 
delicious that is less than a dollar? Despite these challenges, 
we have made progress, and I do believe it can be done in other 
places.
    For school districts, it requires more incentives and 
better policies. When a fruit cocktail meets nutritional 
guidelines set by the USDA, I think we have a problem. We need 
stronger language in the farm bill to support the local 
purchasing of all food, not just fruits and vegetables, and we 
need investments or loans to help farmers grow real food--
broccoli instead of just corn for corn syrup.
    We need pilot programs to show that this can be done in 
other parts of the country, both the lunch piece and the 
education piece.
    We need more funding for food. We have to stop thinking of 
food as cheap. Jamie Oliver--I was recently with him--another 
chef from the U.K., held up an iPod, and he said, ``Would you 
want to buy this iPod if it just cost $20?'' No. You would 
question where it came from, and you would question what it was 
made of. We should be thinking about the same thing with food 
for our children. Do we really want to buy the cheapest beef? 
The beef recall, the largest in history with 173 million pounds 
of beef, should be a lesson to us.
    We need more funding for training and for school gardens, 
because we have learned at the Edible Schoolyard, if they grow 
it and cook it, they absolutely will eat it.
    Finally, it requires leadership at all levels of government 
and in our schools. Budgets are tight, but we can pay now or 
pay later. I do not need to tell you about the obesity crisis 
facing our children and the CDC's telling us that this 
generation will be the first to die younger than its parents.
    I end with how I introduced myself, as a mother who cares 
about what kind of world my children will live in. Children 
learn eating habits when they are very, very young. I have a 
son who is 1 and a daughter who is 3. Fortunately, my daughter 
loves peas. She saw a basket of them recently at Chez Panisse, 
and she asked to take a handful of them out of the restaurant 
with her. As we left, she said, ``More, mama, more.'' But at 
the same time, she goes to a daycare center in Oakland where 
there is a lunch subsidized by the Federal Government that 
gives her fish sticks and chocolate pudding for lunch. There is 
something wrong with this picture, when a mother tries to do 
the right thing but the Government sends a different message.
    I am so honored to be here, testifying before this 
committee. It means that Government, our leaders, are 
connecting the dots between the food system and the 
environment, between our children's health and the health of 
this economy. What we feed our children matters. The National 
Lunch Program serves 31 million children a day. We have a 
choice about what to feed them.
    Thank you for connecting your efforts to create energy 
independence and to stop global warming with our efforts to 
make a very simple meal--lunch--more delicious and locally 
grown for children.
    Thank you.
    [The prepared statement of Ms. Wong follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman [presiding]. Thank you, Ms. Wong, very much.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver, for a round of questions.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Mr. Beard, I returned to Washington this past Sunday night, 
and I came to my office at about 11 o'clock at night, which is 
just a slight symbol of the fact that I have no life. When I 
arrived at 11 o'clock at night, all around the offices, the 
lights--in our offices, we have changed all of the lightbulbs. 
There is a rule to turn off the lights when you leave, and the 
television is not supposed to be on all night. However, when I 
looked out my window, I could see that there were very few 
other Members practicing that kind of stewardship, if I can use 
an etiological term.
    Although I think we are making some strides, is there 
anything that you can suggest that would help us get across to 
the people here in the Capitol the events that we are doing?
    I had hoped, when word got out about all of the changes 
that you have implemented in the dining room, that that would 
be a subtle suggestion that maybe we ought to do something in 
our offices and even in our district offices.
    I have a mobile unit in my district in Missouri, in Kansas 
City, Missouri. We have a mobile unit that runs off of grease. 
We get the grease, of course, at restaurants, so it ends up 
being recycled. You cook a Big Mac in it. We drive with it.
    I think, as we are trying to get the Nation to even think 
about the sustainability of our food supply, of our dining, 
that maybe we need some moral authority to make those 
pronouncements. I am not sure we do have that, based on what is 
going on on the Hill right now.
    Do you have any ideas or suggestions?
    Mr. Beard. Yes, I do, Mr. Cleaver. I happen to think that 
what we need to have is a night lighting policy. You know, we 
need to direct that the lights in the offices be turned off at 
a reasonable hour, whatever that may be. Until we can go back 
and retrofit all of the offices with motion-detector lights, we 
do not really have any choice other than to mechanically flick 
those--make sure, direct that those lights are turned off.
    The system that is currently used by the Architect of the 
Capitol is to have the cleaning crews, as they leave, turn off 
all of the lights, but that is an inconsistent pattern. It does 
not work. I think a better solution would be to work with the 
Architect of the Capitol to implement a night lighting policy.
    We have already worked with the Architect to reduce the run 
time on the fans, for example, for the heating and cooling 
systems. We have reduced the run time by 14 percent, which, in 
turn, you know, is having an impact on our carbon footprint and 
on our overall operations. We are also trying to install better 
controls so that we are not running the air-conditioning 
systems, you know, 24/7 at a very low temperature.
    So I happen to think the easiest way to go about this is to 
work with the Architect of the Capitol to come up with a night 
lighting policy so that we turn those lights off. If a Member 
is there and wants them on, all he has to do is flick the 
switch, but otherwise, they are off, and we ought to make sure 
that they are off. There is a significant savings that can be 
had, you know, both in terms of carbon and the costs of 
electricity.
    Mr. Cleaver. Now, when this committee first began its work, 
at one point, we had the largest carbon footprint in 
Washington; Capitol Hill did. Is that still the case? If so, 
how do we expand what you are doing?
    Mr. Beard. I am not always sure we have the largest carbon 
footprint in Washington, but you have to remember, the 7,000 
employees of the House of Representatives who are here in 
Washington on this campus do business in very old structures. I 
mean, the Capitol is 1793, finished in 1810. Our newest 
building is the Rayburn Building, 1965, so it is 42 years old. 
You know, the Ford is 1939, the Longworth is 1933, the Cannon 
Building is 1908.
    Now, each one of those buildings was built to the fire, 
safety, health, heating and cooling standards of their day, and 
we have had to go back and retrofit every one of them. Some 
buildings, like the Capitol, leak like a sieve. I mean, there 
is no other way to describe it. That is just because we have 
had a hodgepodge development.
    So we have very old, very aging infrastructure where, for a 
long time, no one made any improvements in the heating and 
cooling systems, in the metering or in any of the other aspects 
of building operations. So we have a long ways to go to be able 
to address that.
    Our carbon footprint of 91,000 tons for a community, a 
small city of 7,000 people in the District, is probably larger 
than normal, but I do not think that it is too outrageously 
high. There are other bigger institutions like Georgetown and 
GW, but most of them have buildings that are a lot newer than 
ours. Ours do not change very much, frankly.
    Mr. Cleaver. Thank you.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes himself for a round of questions.
    Mr. Beard, what was your most difficult challenge in 
attempting to green the Capitol?
    Mr. Beard. That is an interesting question.
    I think there were really two big problems. The first was 
getting our arms around all of the factual situation. What is 
our carbon footprint? Luckily, the General Accounting Office 
had been asked to prepare that information a couple of years 
ago, and they made it available to us. So that solved that 
problem.
    I think the second problem has been getting people to 
realize that they have to do business in a different way. That 
is everyone from Members and other agencies like the Architect 
of the Capitol or the Senate or the Capitol Police, or whomever 
it may be, and our employees. We need to do business in a 
different way, but it is not that expensive, it is not that 
difficult, and it certainly does not take new technology. It is 
all off-the-shelf, and we are not doing anything different than 
any other major corporation or institution in America is doing 
at the present time. Wal-Mart or Harvard or any company worth 
its salt is investing in and is making energy-efficient 
improvements to affect the bottom line.
    The Chairman. Are there any other commercial cafeterias 
that close the loop for procurement, consumption and disposal, 
as the House cafeteria does?
    Mr. Beard. I do not know of any in the Washington, D.C., 
area. Rutgers University has a very good one. The Harvard 
Business School has one. Google, both in the Bay Area as well 
as in New York, has pretty modern facilities. But I do not know 
of any others in the D.C. area that have taken the kind of 
steps that we have.
    The Chairman. How have you been able to create a corporate-
model, sustainable cafeteria without a price premium?
    Mr. Beard. Well, it does cost a little bit more, but I am 
convinced that you make it up on the back end by increased 
sales. You know, our restaurant is a commercial operation, if I 
can put it in those terms. We have a vendor. The vendor 
prepares the meals, sells the food, and then the House receives 
a payment as a percentage of those sales. So, the more meals we 
serve, the more money we make, in a sense, if I can use that 
analogy.
    Last year, we received $275,000 in revenues under GSI. We 
anticipate that will go up to $1.2 million this year with 
Restaurant Associates, primarily because we are presenting a 
better product in a better environment, and the food is better, 
it is fresher, and we are getting on a per capita basis greater 
attendance at the cafeteria than we have had in the past.
    I do not know how that will work out, you know, 6 months 
from now, but certainly, it goes back to the testimony that we 
received about the schoolchildren in school cafeterias. It is 
not that difficult; it is very easy. You know, you want to make 
available the best product you can to the employees who work 
here and to the Members and to our guests that we possibly can. 
If we are willing to invest a little bit to do that, we will 
get money back on the back end.
    It cost us, for example, $90,000 to purchase and install 
the pulper, but we will make that money back over probably a 6-
year period of time. I think it was a good investment.
    The Chairman. So, in the end, though, it is not a price 
premium, if you think about it. It is the overall life cycle.
    Mr. Beard. It may be in the first year, but in the second, 
third, fourth, and fifth years, it is not.
    The Chairman. It is not.
    Dr. Millner, the Beltsville composting facility that is 
operating, is that operating at capacity?
    Ms. Millner. Yes, at the present time, we are. We actually 
expanded ourselves a little bit more than we originally 
intended, but with some additional modifications and some 
processes with the in-vessel systems, we are able to handle 
things.
    The Chairman. How many facilities like that are there in 
the United States?
    Ms. Millner. Composting facilities in general? I am going 
to think that there might be about 4,000 or 5,000 total. A lot 
of these do not handle food composting particularly. Most of 
them handle yard trimmings and that sort of thing.
    The Chairman. You discussed new facilities to avoid long-
haul distances.
    Ms. Millner. Yes.
    The Chairman. What are the constraints of finding a 
location for a composting facility?
    Ms. Millner. Well, there are actually quite a few. Most of 
them center around community concerns about potential aspects 
that maybe there might be some odor or maybe there might be 
some additional traffic or as to the aesthetic appearances of 
an outdoor composting facility where you see the piles and that 
sort of thing instead of an enclosed, in-vessel type of system.
    The Chairman. So what are the opportunities for expansion?
    Ms. Millner. Well, in an urban area, what we are looking at 
is--there are a variety of different in-vessel systems that are 
available within the United States, so that is what we are 
looking at. What is the most efficient type of system for the 
food-type operations? Particularly, how do they compare with 
regard to gaseous emissions that impact global warming? What 
are their energy costs for operating them? Because they 
obviously do utilize some kind of forced aeration, so that has 
to be taken into account.
    The Chairman. So, can you answer that? Can you deal with 
that question for a second? What are the expenses related to 
composting?
    Ms. Millner. The expenses are the capitalization, if you 
are talking about a brand-new facility. If they have to get a 
facility up and going, it is whatever is required for the 
permitting of that facility. Then there are operations and 
maintenance costs, in addition to any of the capital items for 
the equipment that you need to purchase to move the materials 
around.
    The Chairman. How commercially profitable is the compost 
after it has been processed?
    Ms. Millner. That depends on what they decide to do in the 
beginning. I often tell people you have to start with the end 
in mind. In that regard, I say that if you are really looking 
to produce a very high-end horticultural product, then you need 
to do certain things within the steps in making that product to 
get to that very high end. You can ask a very large price for 
that because horticultural producers want a reliable, high-
quality product.
    If, on the other hand, you are producing a product that you 
are just using for general field application for corn or for 
some other commodity, you may not need to go to that high of an 
end to produce a high-quality product. Consequently, you do not 
have to put in as much capital investment.
    The Chairman. All right. Thank you.
    Ms. Wong, what aspect of the School Lunch Initiative has 
the greatest influence on children, in your opinion?
    Ms. Wong. I think the greatest aspect of it is--a simple 
example is a salad bar, just having fresh, local produce where 
kids can see and choose. Kids like to choose things. So, when 
they see it, they want to eat it. And it really makes a 
difference in both their health and in the environment.
    The Chairman. Are you interested in expanding to other 
school districts?
    Ms. Wong. Absolutely. We are always looking for different 
partners, and we have been contacted by folks in Chicago and in 
New York and in Los Angeles. While we may not run the program, 
for we are a very small organization, we absolutely support and 
are trying to link up funders to support this kind of program 
in other school districts.
    The Chairman. Well, let me ask this question to any of you 
down there. What has been the response from diners as you move 
to this new model? What are you hearing back from the people 
who consume this food?
    Mr. Beard. Well, speaking for the House anyway, when the 
New York Times' food critic came to taste the food, after 
tasting the food, she walked around and talked to people. She 
randomly talked to people in the Longworth cafeteria. She came 
back and said, ``Well, that was a surprise.'' I said, ``What 
was?'' She said, ``The number-one answer I got back was people 
were excited about being able to participate in a composting 
exercise.'' They like the food, but it is just as important 
that we are composting. So I think that was, to me at least, 
one real testament.
    I also judge the number of negative e-mails I get. Usually 
when we make some kind of change around here, I get a lot. I 
guess it is part of the job. But I would have to tell you that 
I have not received any bad e-mails. Now, I have received e-
mails about we need additional information on various aspects 
and problems with people with special diets, but I have yet to 
receive an e-mail where somebody said this is lousy food, so--
--
    The Chairman. Ms. Wong, what kind of comments are you 
receiving from diners?
    Ms. Wong. In our kitchen classroom, some of the kids serve 
lunch. Kids make a dish, and they grow the food. I can tell 
you, on countless occasions I have been in there and have seen 
young boys and girls devouring plates of Swiss chard and kale. 
How many times have you seen that? I see it every time I go 
down there in the winter because they have been involved in 
growing it and cooking it, and it tastes good because it is 
straight from their garden that they have been growing it.
    Another story is one of the programs we implemented was a 
free breakfast program, so we would source apples and other 
fruits and vegetables locally from the farmers market. Teachers 
can do it or not do it, but it is available to all of the kids. 
At one school in particular, there was a classroom; one teacher 
was too lazy to go down and get the food in the cafeteria and 
bring it back up. One of the young students called the food 
service director and said, ``Why is everyone else getting this 
great free breakfast with this fruit and these muffins, and I 
don't have it?''
    So students really are noticing differences. The longest 
line in the high school is the salad bar line.
    The Chairman. Interesting.
    Mr. Beard. If I could interject, Mr. Chairman, I would also 
have to say that, at least in our case, the best test is a 
market test. You know, we have long lines and a lot of people 
coming back, and the use of the cafeteria is greater now than 
it was when we compare it back to a year ago.
    The Chairman. So you are saying that revenues are up?
    Mr. Beard. Revenues are up. More people are eating. And 
they are satisfied customers, which is ultimately the strongest 
test. You don't usually go back for another bad meal at a 
restaurant. That has been my experience. You get only one 
chance.
    The Chairman. Yes, I agree with that, so that is quite a 
tribute.
    The Chair recognizes the gentleman from Oregon, Mr. 
Blumenauer.
    Mr. Blumenauer. Thank you, Mr. Chairman. You picked up on a 
point that I think is very important, in terms of customer 
satisfaction.
    I appreciate, Mr. Beard, that you have a big operation, 
lots of moving parts that you are dealing with, but you are 
already seeing, as your testimony pointed out, cost savings 
just in the area of solid waste, customer satisfaction and more 
people actually taking advantage of the healthier, more 
environmentally sensitive areas.
    Do you have a sense of, as we are going forward, what the 
cost implications of that will be over time? I noticed you 
referenced the $20,000----
    Mr. Beard. Right.
    Mr. Blumenauer [continuing]. Just as one little example.
    Mr. Beard. Well, I would not be surprised if, overall, we 
were going to be up around $200,000 in savings just in the kind 
of investments we have made in going to energy-efficient 
equipment and in the changes to the tipping fees. We also are 
not going to be purchasing as much carbon offsets, so that is a 
savings. So I would not be surprised, at the end of the year, 
if we would reach $200,000 in savings. It is not unusual.
    Mr. Blumenauer. Well, I would add my voice to what you were 
saying as to how positive the transition has been. You do not 
usually see that when you are talking about changes, and 
particularly when there are a few people who had decided to be 
cranky before they had even seen it. I have been stunned at 
just the chatter, as I dip down in there for a few minutes to 
try and grab something, and at the positive feedback from our 
office and with the young men and women on the Hill who we come 
in contact with and with visitors.
    This is something that I don't think has been given proper 
attention, but we have millions of visitors who are on Capitol 
Hill every year, and the opportunity to watch the modeling and 
the feedback that they get is an opportunity to carry that 
message. Up to this point, based on the feedback from my 
constituents and from the folks we pick up on, it has been very 
positive, and I appreciate it.
    I would pose a question to you, Mr. Beard, and to our other 
panelists about the lessons that this suggests for other areas 
of the Federal Government. I think it is important for us to 
model the behavior we want from the rest of America on Capitol 
Hill, but the Federal Government is the largest landlord, 
landowner, employer, probably the largest provider of food 
services in the United States. As you sort of run this all out, 
it has a pretty significant potential impact.
    I wondered if any of you had thoughts or observations from 
these lessons about what changes we should have in Federal 
policy to be able to accelerate this change to capture these 
savings and to increase customer satisfaction.
    Mr. Beard. Do you want to go ahead?
    Ms. Wong. I mentioned earlier in my testimony that the farm 
bill is now in conference, but there are things in it that 
encourage and provide incentives for participating locally. So 
those are important pieces of legislation that need to be 
strengthened, as well as encouraging loans for farmers to 
really begin to produce real food. Those are two very strong 
examples that I think, policy-wise, support our efforts.
    Mr. Blumenauer. I will send you my Food and Farm Bill of 
Rights legislation----
    Ms. Wong. Terrific.
    Mr. Blumenauer [continuing]. Some of which got into the 
farm bill.
    Ms. Wong. I am sure I will agree with it.
    Mr. Beard. Well, I think my observation would be that it is 
not that hard. We are not talking about rocket science here. 
This is not brain surgery or anything. We are talking about 
obtaining locally produced products and providing fresh food to 
our customers.
    I really have to put in a plug for our vendor. Restaurant 
Associates has been a fantastic vendor for the House. I met 
with the president of Restaurant Associates in November, and I 
told him that success, to me, would be that in a year people 
would come to Washington, D.C., and say, ``We have to go to the 
House of Representatives cafeteria because it is a green and 
sustainable operation.''
    I think we are almost there. I mean, I think, frankly, with 
some more publicity like this hearing, we will be having that 
kind of an impact. It really is not that hard. It does not cost 
that much more. And you make the money back, you know, in the 
long term by having greater revenues.
    So I guess the other thing is--in terms of policy, I think 
the suggestions about the farm bill are very, very interesting 
and very worthwhile. We have actually made these changes, 
incidentally, without the benefit of getting as many products 
from local providers as we would like to have because of the 
time of the year we are in. I think, when you see it in the 
spring and in the fall here, you will see a lot fresher 
products. Our apples, peaches and other kinds of things that 
you will see will be local products.
    As you walk into the Longworth cafeteria, for example, or 
into the Rayburn, you will notice a little sign, and it says, 
``Our local partners.'' What it shows is the local farms that 
are supplying food that day. I have talked to Restaurant 
Associates about having some of those farmers come into the 
restaurants and, you know, talk some about the kinds of things 
that they are doing and about their products, so it can build a 
link between our cafeterias and our suppliers, the farms that 
we are using.
    So there are a lot of exciting things that we can do, and 
Restaurant Associates has been more than willing to participate 
in that.
    Ms. Millner. I would just say there is hardly a week that 
goes by when I do not receive a call from other Federal 
agencies around here in the Washington metropolitan area who 
would like to be able--they are interested in doing the 
composting of food residuals and are trying to get on board 
with the bio-based products.
    So I think there is a huge, pent-up demand among the 
Federal agencies to do that. As soon as there is more 
composting capacity for food waste in the area, I can see that 
going forward rather rapidly.
    Mr. Blumenauer. Super. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman from Oregon.
    We are going to ask now each one of you to give us your 
best 1-minute summary of what you want us to remember about 
this phenomenon so that we can retain that in our minds. Feel 
free to use the props which you have brought as part of your 
summation.
    Ms. Wong, we will begin with you for 1 minute.
    Ms. Wong. I would like to give a quote from my 
organization's founder. I think this sums it up. Alice Waters 
said, ``I believe there is something very wrong with the way 
most people in our culture relate to food, and this is 
something that seems to me to be absolutely central to the 
future of environmentalism. Even the environmental visionaries, 
who seem to be seeing the trees awfully well, even some of 
these brilliant revolutionaries keep missing the forest. And 
the forest is that learning to make the right choices about 
food is the single most important key to environmental 
awareness for ourselves and for our children.''
    The Chairman. Thank you, Ms. Wong, very much.
    Dr. Millner.
    Ms. Millner. I would just sum up by saying that composting 
is Mother Nature's natural process for decomposing and 
recycling. It starts and ends there.
    The Chairman. Beautiful. Thank you.
    Mr. Beard.
    Mr. Beard. I think I would use a little bit of a variation 
of that. Again, you know, we start with the food itself. The 
materials are compost material, you know--I guess I call it my 
coleslaw--leading us into compost. So it is a life cycle, and 
you have to think about it in life-cycle terms and look at this 
in a much more comprehensive fashion.
    Then, I think the last thing that I would say is that I 
would encourage you to visit the Members' Dining Room, the 
Longworth or the Rayburn cafeteria. Bon appetit!
    The Chairman. Thank you very much.
    Mr. Beard. Thank you.
    The Chairman. I am doing that, and it is really great. I 
want to congratulate you.
    Mr. Beard. Thank you.
    The Chairman. You know, we are daily diners, but I think 
Members might want to try Chez Panisse too. That might be a 
good congressional trip for us.
    We thank you all very much for your patience.
    This hearing is adjourned.
    [Whereupon, at 4:15 p.m., the committee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
